Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MEDICARE PAYMENTS FOR
    ENTERAL NUTRITION




                    Inspector General

                     February 2004
                    OEI-03-02-00700
               Office of Inspector General

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
�    A B S T R A C T 





                                  Category I enteral nutrition formulas represented $201 million of the
                                  $311 million in Medicare Part B payments for all enteral nutrition
                                  formulas in 2001. The Office of Inspector General (OIG) compared the
                                  amount Medicare reimburses for Category I enteral nutrition formulas
                                  (procedure code B4150) to prices available to the supplier community.
                                  We obtained 177 individual contract prices for Category I formulas
                                  through 1 national wholesaler, 1 group purchasing organization, and 1
                                  supplier who negotiated contracts directly with 2 enteral nutrition
                                  formula manufacturers. We found that Medicare’s reimbursement
                                  amount for Category I formulas ($0.61 in 2001) exceeded median
                                  contract prices available to suppliers from the 3 sources reviewed by 70
                                  to 115 percent. Median contract prices ranged from $0.28 per unit to
                                  $0.36 per unit. Individual contract prices for Category I formulas varied
                                  from a low of $0.18 per unit to a high of $0.86 per unit, yet the majority
                                  (75 percent) of individual contract prices were lower than $0.42 per unit.
                                  OIG recommended that the Centers for Medicare & Medicaid Services
                                  (CMS) consider using its inherent reasonableness authority to reduce
                                  the Medicare reimbursement amount for Category I formulas. CMS
                                  agreed with our recommendation.




    O E I - 03 - 02 - 0 0 7 0 0   ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N   i
�    E X E C U T I V E                                             S U M M A R Y 



                                  OBJECTIVE
                                  This inspection compared the amount Medicare reimburses for Category
                                  I enteral nutrition formulas (procedure code B4150) to prices available
                                  to the supplier community.


                                  BACKGROUND
                                  Medicare covers enteral nutrition therapy, commonly called tube
                                  feeding, for beneficiaries who cannot swallow due to a permanent
                                  medical problem or an impairment of long and indefinite duration.
                                  Medicare Part B coverage of enteral nutrition therapy is provided under
                                  the prosthetic device benefit for beneficiaries residing at home, or in a
                                  nursing facility when the stay is not covered by Medicare Part A.
                                  Medicare Part B payments for enteral nutrition formulas totaled more
                                  than $311 million in calendar year 2001.
                                  Medicare groups enteral nutrition formula products into seven codes,
                                  based on their composition. Category I formulas represented by code
                                  B4150 accounted for $201 million of the $311 million in Medicare Part B
                                  payments for all enteral nutrition formulas in 2001. Medicare
                                  reimbursement for Category I formulas was $0.61 per 100 calories of
                                  formula in 2001.
                                  While a wide variety of enteral nutrition formulas meets the criteria for
                                  inclusion in Category I, Medicare does not collect any information on
                                  the brands and types of formulas that are actually provided to Medicare
                                  beneficiaries when suppliers submit Category I formula claims for
                                  reimbursement.
                                  Suppliers may purchase enteral nutrition formulas from sources such as
                                  wholesalers, group purchasing organizations, and directly from
                                  manufacturers. Prices charged to individual suppliers are often based
                                  on the volume of product purchased. In order to compare Medicare’s
                                  reimbursement amount to prices available to suppliers, we obtained
                                  contract prices for Category I enteral nutrition formulas through one
                                  national wholesaler and through one group purchasing organization.
                                  We also obtained information on one supplier’s contract prices that were
                                  negotiated directly with two enteral nutrition formula manufacturers.
                                  We did not collect data from suppliers regarding any additional supplier
                                  costs related to furnishing enteral nutrition formula to Medicare



    O E I - 03 - 02 - 0 0 7 0 0   ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N   ii
E    X      E      C       U      T   I     V      E           S      U     M         M      A      R       Y


                                          beneficiaries. Therefore, the median contract prices do not include
                                          these associated supplier costs.
                                          To determine how much Medicare and its beneficiaries could save if the
                                          reimbursement amount for Category I formulas were set at prices
                                          available to suppliers, we calculated percentage differences between the
                                          medians of contract prices for Category I formulas and the Medicare
                                          reimbursement amount in 2001. We applied these percentage
                                          differences to 2001 Medicare Part B payments for Category I formulas
                                          in order to compute potential program savings.
                                          Since completion of our evaluation, the Medicare Prescription Drug,
                                          Improvement, and Modernization Act of 2003 (the Act) was signed into
                                          law. In part, the Act directs the Secretary of the Department of Health
                                          and Human Services to establish a program for competitive acquisition
                                          of durable medical equipment and supplies. This program has yet to be
                                          developed and implemented; however, it could reform how Medicare
                                          reimburses for enteral nutrition, equipment and supplies.


                                          FINDINGS
                                          Medicare’s reimbursement amount for Category I enteral nutrition
                                          formulas exceeded the median of purchase prices reviewed by as
                                          much as 115 percent. An analysis of 177 contract prices available to
                                          suppliers from the 3 sources reviewed indicated that the Medicare
                                          payment amount for Category I formulas exceeded median contract
                                          prices by 70 to 115 percent. The lowest median contract price for
                                          Category I formulas was obtained by the supplier who negotiated prices
                                          directly with manufacturers. If Medicare’s payment amount for these
                                          formulas had been set at the median of purchase prices reviewed, we
                                          estimate that the program and its beneficiaries could have saved over
                                          $82 million in calendar year 2001.
                                          Individual contract prices for Category I formulas varied widely, from a
                                          low of $0.18 per unit to a high of $0.86 per unit. The majority (75
                                          percent) of individual contract prices were lower than $0.42 per unit. At
                                          present, Medicare is unable to determine whether most beneficiaries are
                                          using the lower-priced or higher-priced products because the program
                                          does not collect any specific information on the products that are
                                          provided to beneficiaries when suppliers submit claims for Category I
                                          formulas.




    O E I - 03 - 02 - 0 0 7 0 0           ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N   iii
E    X      E      C       U      T   I     V      E           S      U     M         M      A      R       Y



                                          RECOMMENDATION
                                          The findings of this report suggest that the supplier community obtains
                                          Category I enteral nutrition formula products at prices that are lower
                                          than Medicare’s reimbursement amount. If Medicare’s reimbursement
                                          amount had been based more closely on these prices, the program and
                                          its beneficiaries could have realized savings.
                                          The Centers for Medicare & Medicaid Services (CMS) had attempted to
                                          reduce Medicare payments for enteral nutrition formulas through the
                                          use of its inherent reasonableness authority. However, Congress
                                          suspended the use of the inherent reasonableness authority in the 1999
                                          Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act
                                          before payment reductions could be implemented. In December 2002,
                                          CMS published an interim final rule on the use of inherent
                                          reasonableness authority. This rule, which became effective in
                                          February 2003, allows CMS contractors to raise or lower Medicare
                                          payment amounts for medical equipment and supplies by 15 percent in
                                          any given year without a formal rulemaking process.
                                          We believe that continued CMS attention to Medicare Part B payments
                                          for Category I enteral nutrition formulas is warranted. Since CMS now
                                          has the authority to implement inherent reasonableness reductions, we
                                          recommend that CMS:
                                          Consider using its inherent reasonableness authority to reduce the
                                          Medicare reimbursement amount for Category I enteral nutrition formulas.

                                          CMS may want to begin an inherent reasonableness review by collecting
                                          information from Medicare suppliers to identify the specific Category I
                                          enteral nutrition formulas that suppliers provide to Medicare
                                          beneficiaries. CMS may also want to collect information from suppliers
                                          to determine suppliers’ purchase costs for the specific formulas used by
                                          Medicare beneficiaries.
                                          CMS agreed with our recommendation that they consider using
                                          inherent reasonableness authority to reduce the reimbursement amount
                                          for Category I formulas. CMS noted that it will not be able to initiate
                                          inherent reasonableness reviews until its contractor develops written
                                          procedures for conducting these reviews according to the statute and
                                          regulation.




    O E I - 03 - 02 - 0 0 7 0 0           ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N   iv
�   T A B L E         O F             C O N T E N T S 




           A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



           E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii



           I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




           F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                       Medicare reimbursement for Category I formulas


                       exceeded median purchase price........................................................ 7



           R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10




           A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                       A : Calculation of Potential Savings for


                             Category I Enteral Formulas ..................................................... 11


                       B: Centers for Medicare & Medicaid Services’ Comments ............. 12



           A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

�    I N T R O D U C T I O N 



                                  OBJECTIVE
                                  This inspection compared the amount Medicare reimburses for Category
                                  I enteral nutrition formulas (procedure code B4150) to prices available
                                  to the supplier community.


                                  BACKGROUND
                                  Medicare Coverage of Enteral Nutrition Therapy
                                  Medicare covers enteral nutrition therapy, commonly called tube
                                  feeding, for beneficiaries who cannot swallow due to a permanent
                                  medical problem or an impairment of long and indefinite duration.1
                                  Medicare Part B coverage of enteral nutrition therapy is provided under
                                  the prosthetic device benefit for beneficiaries residing at home, or in a
                                  nursing facility when the stay is not covered by Medicare Part A.
                                  Enteral nutrition formulas are available in liquid or powder form (which
                                  is reconstituted with water). The liquid solution is administered
                                  through a tube, which is threaded through the patient’s nose or a
                                  surgical opening that leads directly to the stomach or intestine. Liquid
                                  enteral nutrition formulas are packaged in cans and pre-filled sterile
                                  containers. A canned formula is emptied into a plastic bag or container,
                                  which is then connected to tubing and hung from an IV pole for
                                  administration. Unlike cans, the pre-filled sterile systems do not
                                  require transfer of formula from one container to another. A pre-filled
                                  container is “spiked” with tubing and then hung from an IV pole for
                                  administration.
                                  Medicare groups enteral nutrition formula products into seven classes,
                                  based on their composition. Products falling within these classes are
                                  identified by one of seven Healthcare Common Procedure Codes
                                  (HCPCs) for reimbursement purposes. A wide variety of enteral
                                  nutrition formulas are grouped under Category I, including Boost®,
                                  Ensure®, Isosource®, and Nutren®. However, Medicare carriers do not
                                  collect any information on the manufacturer, brand name, type, and size
                                  of packaging of the individual enteral nutrition formulas that they cover
                                  under the Category I procedure code.



                                  1   Centers for Medicare & Medicaid Services, Medicare Coverage Issues Manual,
                                      Section 65-10.



    O E I - 03 - 02 - 0 0 7 0 0   ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N             1
I   N      T      R      O        D   U       C     T     I    O      N


                                          Medicare Part B Payments for Enteral Nutrition Formulas
                                          Medicare Part B payments for enteral nutrition formulas totaled more
                                          than $311 million in 2001. Category I enteral nutrition formulas
                                          represented by code B4150 (defined in Table 1) accounted for $201
                                          million, or almost two-thirds, of total formula allowances. Code B4150
                                          ranked ninth in a listing of durable medical equipment and supply codes
                                          with the highest Medicare allowances in the last quarter of 2001.2

                                                  Table 1. Procedure Code B4150

                                                  HCPC                                           Code Description                   2001 Medicare
                                                                                                                                     Allowances

                                                                     Enteral formulae; Category I; semi-synthetic intact
                                                                          protein/protein isolates, administered through an
                                                  B4150                                                                               $201,066,767
                                                                                      enteral feeding tube, 100 calories = 1 unit

                                              Sources: American Medical Association, HCPCS 2002 publication; CMS’ National Claims History File

                                          Part B claims for enteral nutrition formulas are processed and paid by
                                          four durable medical equipment regional carriers (DMERCs). Medicare
                                          carriers use national fee schedule amounts to reimburse claims for
                                          enteral nutrition formulas.
                                          Medicare reimbursement for enteral nutrition formulas is based on the
                                          number of calories of formula provided to a patient, not the volume of
                                          the product. Reimbursement amounts are for one unit, defined as 100
                                          calories, of formula. For example, if a patient is prescribed 1,000
                                          calories of formula per day, Medicare reimbursement is based on 10
                                          units of formula per day. Medicare reimbursement for Category I
                                          formulas was $0.61 per unit in 2001.
                                          Efforts to Reduce Medicare Payments for Enteral Nutrition Formulas
                                          In 1998, DMERCs proposed a 16 percent reduction in Medicare’s
                                          allowance for Category I formulas using the Centers for Medicare &
                                          Medicaid Services’s (CMS’s) revised inherent reasonableness authority.
                                          This authority allowed DMERCs to adjust Medicare payments up or
                                          down by a maximum of 15 percent per year for medical equipment and
                                          supplies without going through a formal rulemaking process. An
                                          incremental approach would have resulted in a 15 percent reduction in
                                          the first year of implementation and an additional 1 percent reduction


                                          2   The SADMERC Abstract, Volume VIII, Palmetto GBA, June 14, 2002 (Internal CMS
                                              document).



    O E I - 03 - 02 - 0 0 7 0 0           ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N                                       2
I   N      T      R      O        D   U       C     T     I    O      N


                                          in the second year. The proposed reductions were based on DMERCs’
                                          surveys of retail prices for items “that they suspected had excessive
                                          Medicare payment rates,”3 including Category I formulas. However,
                                          Congress suspended the use of the inherent reasonableness authority in
                                          the 1999 Medicare, Medicaid, and SCHIP Balanced Budget Refinement
                                          Act before payment reductions could be implemented. This provision
                                          required the U.S. General Accounting Office (GAO) to complete a study
                                          of the potential effects of using inherent reasonableness measures, and
                                          required CMS to issue a final rule that responded to the GAO report
                                          before CMS could use this authority to reduce Medicare payments.
                                          The GAO report (issued in July 2000) indicated that Medicare
                                          allowances for some items of durable medical equipment may be
                                          substantially higher than the prices available in retail outlets.
                                          However, GAO questioned the DMERCs’ retail survey results for
                                          enteral nutrition formulas, noting, “the DMERCs did not survey the
                                          types of enteral nutrition formulas and the packaging systems
                                          considered most appropriate and generally used for tube feeding.”4
                                          GAO concluded that retail survey data alone did not provide sufficient
                                          evidence to adjust the Medicare allowance amount for Category I
                                          formulas. CMS published an interim final rule on the use of inherent
                                          reasonableness authority in December 2002. This rule, which became
                                          effective in February 2003, limits payment adjustments to a 15 percent
                                          increase or decrease in any given year and also states that proposed
                                          payment adjustments of less than 15 percent do not provide "a sufficient
                                          basis" for the use of this inherent reasonableness authority.
                                          Enteral nutrition formulas and associated equipment and supplies were
                                          also included in the first round of a CMS competitive bidding
                                          demonstration in Polk County, Florida from October 1999 through
                                          September 2001. This project aimed to demonstrate how competition
                                          among suppliers could reduce Medicare payments for some medical
                                          equipment and supplies. Competitive bidding demonstration
                                          allowances for six of the seven enteral formula HCPCs were an average
                                          of 9.1 percent lower than fee schedule rates. The demonstration
                                          allowance for Category I formulas was $0.56 – an amount that is 8.2
                                          percent lower than the national fee schedule amount.


                                          3   U.S. General Accounting Office, “Use of Revised ‘Inherent Reasonableness’ Process
                                              Generally Appropriate,” GAO/HEHS-00-79, July 2000, p.4.
                                          4   Ibid, p.21



    O E I - 03 - 02 - 0 0 7 0 0           ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N                    3
I   N      T R           O        D   U      C      T     I    O      N


                                          Medicare Prescription Drug, Improvement, and Modernization Act of 2003
                                          Since completion of our evaluation, the Medicare Prescription Drug,
                                          Improvement, and Modernization Act of 2003 (the Act) was signed into
                                          law (Public Law 108-173). In part, the Act directs the Secretary of the
                                          Department of Health and Human Services (HHS) to establish a
                                          program for competitive acquisition of durable medical equipment and
                                          supplies. This program, which will be phased in beginning in 2007, will
                                          replace fee schedules for covered items. The HHS Secretary is
                                          authorized to exempt items and services where competitive acquisition
                                          would not likely result in significant savings. Because this program has
                                          yet to be developed and implemented, it is premature to speculate about
                                          its impact on reimbursement for enteral nutrition and supplies;
                                          however, it bears noting that competitive acquisition could reform how
                                          Medicare reimburses for enteral nutrition, equipment, and supplies.
                                          Supplier Acquisition Costs for Enteral Nutrition Formulas
                                          Suppliers may purchase enteral nutrition formulas from sources such as
                                          wholesalers, group purchasing organizations, and directly from
                                          manufacturers. Wholesalers purchase large quantities of medical
                                          equipment and supplies at discounted rates from manufacturers and
                                          sell these products to suppliers. A group purchasing organization uses
                                          the combined buying power of its members to negotiate advantageous
                                          prices for medical equipment and supplies from manufacturers.
                                          Members of the group purchasing organization then purchase the
                                          products they need from the manufacturers or from wholesalers that
                                          accept the negotiated prices. Suppliers may also obtain enteral
                                          nutrition formulas directly from manufacturers. Prices charged to
                                          individual suppliers are often based on the volume of the product
                                          purchased.


                                          METHODOLOGY
                                          Sources of Contract Prices for Enteral Nutrition Formulas
                                          We obtained contract prices for Category I enteral nutrition formula
                                          products offered through a national wholesaler and a group purchasing
                                          organization. These contracts were with four enteral nutrition formula
                                          manufacturers – Mead Johnson, Nestlé, Novartis, and Ross. The
                                          wholesaler is one of the largest distributors of medical and surgical
                                          products in the United States and serves more than 85,000 customers.
                                          The group purchasing organization serves over 2,300 non-hospital
                                          health care providers across the Nation. We also obtained information


    O E I - 03 - 02 - 0 0 7 0 0           ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N   4
I   N      T      R      O        D   U      C      T     I    O      N


                                          on one supplier’s contract prices that the supplier negotiated directly
                                          with two enteral formula manufacturers – Novartis and Ross.
                                          The contracts included prices for many different types of enteral
                                          nutrition formulas, including liquid formulas packaged in 250 milliliter
                                          (mL) and 1000 mL cans, 1000 mL and 1500 mL pre-filled containers,
                                          and 237 mL Tetra Brik Paks®. Contracts also included prices for
                                          powdered formulas packaged in 1-pound and 4.5-pound cans.
                                          Comparing Contract Prices to Medicare Payment Amount
                                          The 177 individual contract prices reviewed were listed as “per case” or
                                          “per unit” prices. Medicare’s reimbursement amount for Category I
                                          enteral nutrition products is for 100 calories of formula. As shown in
                                          the example in Table 2 below, in order to compare contract prices to
                                          Medicare’s reimbursement amount, we converted each contract price
                                          into a price per 100 calories of formula. We researched manufacturer
                                          literature for each enteral nutrition formula product to determine the
                                          number of calories in a case or unit of product. We determined the price
                                          per calorie by dividing the contract price of the case or unit of product
                                          by the number of calories in the case or unit. We multiplied the
                                          product’s price per calorie by 100 to determine the contract price per 100
                                          calories.

                                          Table 2. Calculation of Contract Price per 100 Calories
                                                      A                         B                       C           D              E

                                                                                                                 Calories    Contract Price
                                           Contract Price                   Cans                  Calories
                                                                                                                 per Case   per 100 Calories
                                             per Case                     per Case                per Can
                                                                                                                   B*C         (A/D)*100

                                                  $19.00                        24                    300         7200           $0.26

                                          Source: Review of Contract Prices, Office of Evaluation and Inspections, 2003.
                                          Note: Currency figures in the table have been rounded.


                                          Calculating Potential Medicare Savings
                                          We calculated how much Medicare and its beneficiaries would save if
                                          the reimbursement amount for Category I formulas were set at the
                                          median of purchase prices reviewed. We determined the percentage
                                          difference in prices for each source by subtracting the median of
                                          contract prices for Category I formulas from Medicare’s national
                                          reimbursement amount in 2001 ($0.61) and then dividing this number
                                          by Medicare’s reimbursement amount. We multiplied these percentage
                                          differences by total Medicare Part B payments for Category I formulas
                                          in 2001 in order to compute potential program savings. Medicare
                                          allowance data were obtained from CMS’s National Claims History File.

    O E I - 03 - 02 - 0 0 7 0 0           ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N                                 5
I   N      T      R      O        D   U      C      T     I    O      N


                                          The data used to calculate potential Medicare and beneficiary savings
                                          are presented in Appendix A.
                                          Limitations of Contract Price Data
                                          We did not collect data from suppliers regarding any additional supplier
                                          costs related to furnishing enteral nutrition formula to Medicare
                                          beneficiaries. Therefore, the median contract prices do not include
                                          these associated supplier costs. The estimates of potential program
                                          savings presented in the findings of this report would be lower if median
                                          contract prices had included associated supplier costs.




    O E I - 03 - 02 - 0 0 7 0 0           ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N   6
0    F I N D I N G S



       Medicare’s reimbursement amount for              An analysis of contract prices
Category I enteral nutrition formulas exceeded         available to suppliers from one
the median of purchase prices reviewed by as           wholesaler and one group
                                                       purchasing organization, and
                         much as 115 percent.
                                                       contract prices negotiated by one
                                                       supplier directly with enteral
                  nutrition formula manufacturers indicated that the Medicare payment
                  amount for Category I formulas exceeded median contract prices by 70
                  to 115 percent. Of the three sources reviewed, the supplier who
                  negotiated prices directly with manufacturers obtained the lowest
                  median contract price for Category I formulas.

                                    Individual contract prices for Category I formulas varied widely, from a
                                    low of $0.18 per unit to a high of $0.86 per unit. Contract prices for only
                                    three products exceeded the Medicare reimbursement amount of $0.61
                                    per unit. Seventy-five percent of individual contract prices were lower
                                    than $0.42 per unit. If Medicare’s payment amount for these formulas
                                    had been set at the median of purchase prices reviewed, we estimate
                                    that the program and its beneficiaries could have saved over $82 million
                                    in calendar year 2001. The actual savings to Medicare and its
                                    beneficiaries would likely be lower than the estimate of potential
                                    savings, since this estimate does not account for any additional supplier
                                    costs related to enteral nutrition formulas. Table 3 presents a summary
                                    of our comparison of contract prices to Medicare’s payment amount and
                                    our estimates of potential program savings.



               Table 3. Comparison of Contract Prices to Medicare Payment Amount
                                                                                                                                 Medicare
                                                                                        Median             Range of       Reimbursement     Potential Annual
                                                                                   Source Price              Prices    Compared to Median       Medicare and
                   Contract Price Source                                               Per Unit             Per Unit         Source Price Beneficiary Savings
                   Medicare National Fee Schedule                                             $0.61             NA                     NA                   NA

                   Group Purchasing Organization                                              $0.36 $0.18 to $0.81             71% Higher        $83,591,036

                   Wholesaler                                                                 $0.34 $0.18 to $0.86             77% Higher        $87,531,798

                   Supplier Contracts with Manufacturers

                       30+ cases of product/month                                             $0.28 $0.19 to $0.57            115% Higher       $107,587,201

                       10-29 cases of product/month                                           $0.29 $0.19 to $0.60            108% Higher       $104,225,101

                       1-9 cases of product/month                                             $0.36 $0.19 to $0.72             70% Higher        $82,898,839
               Source: Review of Contract Prices, Office of Evaluation and Inspections, 2003.
               Note: All figures in the table have been rounded.

    O E I - 03 - 02 - 0 0 7 0 0     ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N                                                7
F    I    N       D      I        N   G    S


                                          Members of one group purchasing organization were able to obtain
                                          Category I formulas for a median price of $0.36 per unit.
                                          The group purchasing organization contracts we reviewed contained
                                          prices for 88 individual Category I enteral nutrition formulas. We found
                                          that suppliers who are members of this group purchasing organization
                                          were able to purchase Category I formulas for a median contract price of
                                          $0.36 per unit.
                                          The group purchasing organization’s contract prices for 86 of 88
                                          individual formula products ranged from $0.18 per unit for Meritene®
                                          powdered formula to $0.48 per unit for Resource® Just for Kids with
                                          Fiber – a pediatric formula packaged in Tetra Brik® Paks. Medicare’s
                                          reimbursement amount was 26 percent to 231 percent higher than
                                          individual product prices available to the group purchasing organization
                                          members. For two products, contract prices exceeded Medicare’s
                                          reimbursement amount. Portagen® powdered formula was priced at
                                          $0.81 per unit; and Introlite® – a half-calorie liquid formula used to
                                          introduce tube feeding – was priced at $0.74 per unit.
                                          Suppliers were able to obtain Category I formulas from one wholesaler
                                          for a median price of $0.34 per unit.
                                          We arrayed wholesale contract prices for 41 individual Category I
                                          enteral nutrition formulas and found that suppliers were able to obtain
                                          these products for a median contract price of $0.34 per unit, compared
                                          to the Medicare payment amount of $0.61 per unit.
                                          The wholesaler’s contract prices for 40 of 41 individual formula products
                                          ranged from $0.18 per unit for a standard, canned, tube-feeding formula
                                          called Isosource® to $0.49 per unit for Glytrol® – a formula for patients
                                          with hyperglycemia – in pre-filled sterile containers. Medicare’s
                                          payment amount of $0.61 per unit was 25 percent to 235 percent higher
                                          than these wholesale contract prices. At $0.86 per unit, a specialty
                                          powdered formula called Portagen® was the only product with a
                                          wholesale contract price that exceeded the Medicare payment amount.
                                          One supplier was able to purchase Category I formulas for a median
                                          price of as low as $0.28 per unit by negotiating directly with formula
                                          manufacturers.
                                          We reviewed contracts for enteral nutrition products that one supplier
                                          negotiated directly with two formula manufacturers. Rather than
                                          listing a single contract price, one of the two manufacturers provided
                                          the supplier with three contract prices for each product. The three
                                          contract prices were based on the number of cases of the product the

    O E I - 03 - 02 - 0 0 7 0 0           ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N     8
F    I    N       D      I        N   G    S


                                          supplier ordered in 1 month. The larger the volume of formula
                                          purchased per month, the lower the per unit contract price (see Table 3).
                                          If the supplier purchased one to nine cases of a particular Category I
                                          formula each month, it paid a median price of $0.36 per unit. For 10 to
                                          29 cases each month, the supplier paid $0.29 per unit. For 30 or more
                                          cases of a Category I formula each month, the supplier paid $0.28 per
                                          unit.
                                          At 1 to 9 cases per month, manufacturers’ contract prices for 46 of 48
                                          individual formula products ranged from $0.19 per unit for Meritene®
                                          powdered formula to $0.58 per unit for a canned pediatric product called
                                          Pediasure® Enteral Formula. Medicare’s reimbursement amount was 6
                                          percent to 218 percent higher than these individual product prices.
                                          Contract prices for two products – Introlite® and Pediasure® Enteral
                                          Formula with Fiber – exceeded Medicare’s reimbursement amount. At
                                          10 to 29 cases per month and 30 or more cases per month, all of the
                                          manufacturers’ contract prices were lower than the Medicare payment
                                          amount of $0.61 per unit.




    O E I - 03 - 02 - 0 0 7 0 0           ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N   9
   �           R E C O M M E N D A T I O N 



                              RECOMMENDATION
                              The findings of this report suggest that the supplier community obtains
                              Category I enteral nutrition formula products at prices that are lower
                              than Medicare’s reimbursement amount. If Medicare’s reimbursement
                              amount had been based more closely on these prices, the program and
                              its beneficiaries could have realized savings.
                              CMS had attempted to reduce Medicare payments for enteral nutrition
                              formulas through the use of its inherent reasonableness authority.
                              However, Congress suspended the use of the inherent reasonableness
                              authority in the 1999 Medicare, Medicaid, and SCHIP Balanced Budget
                              Refinement Act before payment reductions could be implemented. In
                              December 2002, CMS published an interim final rule on the use of
                              inherent reasonableness authority. This rule, which became effective in
                              February 2003, allows CMS contractors to raise or lower Medicare
                              payment amounts for medical equipment and supplies by 15 percent in
                              any given year without a formal rulemaking process.
                              We believe that continued CMS attention to Medicare Part B payments
                              for Category I enteral nutrition formulas is warranted. Since CMS now
                              has the authority to implement inherent reasonableness reductions, we
                              recommend that CMS:
                              Consider using its inherent reasonableness authority to reduce the
                              Medicare reimbursement amount for Category I enteral nutrition formulas.

                              CMS may want to begin an inherent reasonableness review by collecting
                              information from Medicare suppliers to identify the specific Category I
                              enteral nutrition formulas that suppliers provide to Medicare
                              beneficiaries. CMS may also want to collect information from suppliers
                              to determine suppliers’ purchase costs for the specific formulas used by
                              Medicare beneficiaries.
                              Agency Comments
                              CMS agreed with our recommendation that it consider using inherent
                              reasonableness authority to reduce the reimbursement amount for
                              Category I formulas. CMS noted that it will not be able to initiate
                              inherent reasonableness reviews until its contractor develops written
                              procedures for conducting these reviews according to the statute and
                              regulation.




O E I - 03 - 02 - 0 0 7 0 0   ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N       10
                      A P P E N D I X ~ A 



       Calculation of Potential Savings for Category I Enteral Nutrition Formulas


        1.	 To determine percentage differences between contract prices for Category I enteral
            nutrition formulas and Medicare’s reimbursement amount, we subtracted the
            median price for each source from the Medicare reimbursement amount. We then
            divided this number by the Medicare reimbursement amount.

        2.	 To calculate potential Medicare and beneficiary savings by price source, we
            multiplied total Medicare Par t B allowances ($201,066,767) for Category I enteral
            nutrition formulas in 2001 by the percentage differences.




Calculation of Potential Savings for Category I Enteral Nutrition Formulas

                              A                            B                          C                          D              E              F


                                                                                                     2001 Medicare
                                                    Median                       Median Source Price     Part B      Potential Annual
                                                  Source Price     Medicare     Compared to Medicare Allowances for   Medicare and
                                                    per 100    Reimbursement      Reimbursement        Category I   Beneficiary Savings
Contract Price Source                               Calories   per 100 Calories    ((C-B)/C)*100        Formulas            D*E
Group Purchasing Organization                           $0.36                     $0.61                     41.57% Lower   $201,066,767   $83,591,036

Wholesaler                                              $0.34                     $0.61                     43.53% Lower   $201,066,767   $87,531,798

Supplier Contracts with Manufacturers

30+ cases of product per month                          $0.28                     $0.61                     53.51% Lower   $201,066,767   $107,587,201

10-29 cases of product per month                        $0.29                     $0.61                     51.84% Lower   $201,066,767   $104,225,101

1-9 cases of product per month                          $0.36                     $0.61                     41.23% Lower   $201,066,767   $82,898,839

Sources: Review of Contract Prices, Office of Evaluation and Inspections, 2003; CMS's National Claims History File
Note: Median source prices, percentages, and potential savings amounts in the table have been rounded.




O E I - 03 - 02 - 0 0 7 0 0          ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N                                           11
                              A P P E N D I X ~ B 



         Centers for Medicare & Medicaid Services’ Comments




O E I - 03 - 02 - 0 0 7 0 0          ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N   12

        A      P       P      E   N   D   I      X     ~      B




O E I - 03 - 02 - 0 0 7 0 0                   ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N   13

   � A                 C K N O W L E D G M E N T S 


                              This report was prepared under the direction of Robert A. Vito, Regional
                              Inspector General for Evaluation and Inspections in the Philadelphia
                              Regional Office, and Linda M. Ragone, Deputy Regional Inspector
                              General. Other principal Office of Evaluation and Inspections staff who
                              contributed include:
                              Amy Sernyak, Project Leader

                              Tanaz Dutia, Program Analyst

                              Stephanie Lattin London, Program Specialist




O E I - 03 - 02 - 0 0 7 0 0   ME D I C A R E PA Y M E N T S   FOR   E N T E R A L NU T R I T I O N       14
